                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AUDIT OF CORPORATION FOR NATIONAL AND
    COMMUNITY SERVICE GRANT AWARDED TO THE
    KENTUCKY DEPARTMENT FOR MENTAL HEALTH
       AND MENTAL RETARDATION SERVICES

              OIG REPORT NUMBER 06-31




                       Prepared by:

              COTTON and COMPANY, LLP
                   635 Slaters Lane
               Alexandria, Virginia 22314




This report was issued to Corporation management on July 18, 2006. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
managementdeci     sionsont  hereport’
                                     sf indingsandr  ecommendat    ionsnol  ater
than January 18, 2007, and complete its corrective actions by July 18, 2007.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                            OFFICE OF INSPECTOR GENERAL
                  Audit of Corporation for National and Community Service
                                    Grant Awarded to the
            Kentucky Department for Mental Health and Mental Retardation Services
                                     Audit Report 06-31


OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Cotton and Company LLP (Cotton) to perform an incurred-cost audit of a
Senior Corps grant awarded to the Kentucky Department for Mental Health and Mental
Retardation Services (the Department).

Federal costs claimed by the Department during the audit period totaled $1,118,639. Of this
amount, the auditors questioned $276,238 of Federal costs. The auditors also identified eight
instances of noncompliance with Federal laws and grant provisions, all of which are considered
material weaknesses.

In its response to the draft audit report, the Department generally agreed with the findings related
to questioned costs. However, it did not address any of the internal control and compliance
findings, stating that those issues will be resolved with the Corporation after this report is issued.

TheOI   Gre viewe dCo  tton’sr eporta ndr el
                                           a t
                                             eddoc  ume ntat
                                                           iona ndma  den ecessa r
                                                                                 yin quirie
                                                                                          sofi t
                                                                                               s
representatives. Our review, as differentiated from an audit in accordance with generally
accepted government auditing standards, was not intended to enable us to express, and we do not
expr ess,ano pini ono nt heDe  pa r
                                  tme nt’sfinanc i
                                                 als t
                                                     ateme nts,conc l
                                                                    usionsa bou tthe
effectiveness of internal control or conclusions on compliance with laws and regulations. Cotton
isrespon siblefort hea ttacheda  udi t
                                     or’srepor tdatedJ anuary13  ,2006,andt hec onclusion s
expressed in the report. However, our review disclosed no instances where Cotton did not
comply, in all material respects, with generally accepted government auditing standards.

The OIG provided officials of the Department and the Corporation with a draft of this report for
review and comment. Their responses are included as Appendices A and B, respectively.

This report is a matter of public record and its distribution is not limited.




                       1201 New York Avenue, NW Suite 830 Washington, DC 20525
                          202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                            Senior Corps   AmeriCorps   Learn and Serve America
                       OFFICE OF INSPECTOR GENERAL
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                       AUDIT OF GRANT AWARDED TO
                KENTUCKY DEPARTMENT FOR MENTAL HEALTH AND
                      MENTAL RETARDATION SERVICES

                                CONTENTS

Section                                                           Page

Executive Summary …………………………………………………………….
                                         ..                        1

  Background ………………………………………………………………….
                                      ..                           2

  Exit Conference ……………………………………………………………….                        3

I
nde
  pen
    dentAudi
           tor
             s’Re
                por
                  t……………………………………………………                            4

Schedule A: Schedule of Claimed and Questioned Costs ……………………….
                                                              .    6

I
nde
  pen
    dentAudi
           tor
             s’Re
                por
                  tonCompl
                         iance and Internal Control …………….         9

  Internal Control over Financial Reporting ……………………………………         9

  Compliance with Laws and Regulations …………………………………….
                                                     ..            10

  Findings ……………………………………………………………………….                            10

Appendices

A:TheDepart
          ment
             ’sRes
                 ponseto Draft Audit Report
B:Cor
    por
      a t
        ion’
           sResp
               onset
                   oDr aftAud  i
                               tRe po r
                                      t
                                       EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform an incurred-cost audit of the
following award to Kentucky Department for Mental Health and Mental Retardation Services
(Department) for Program Years (PYs) 2003-2004 and 2004-2005. Our audit covered financial
transactions, compliance and internal control testing of the following award funded by the
Corporation:

     Program                             Award No.       Award Period         Audit Period
     Senior Corps Foster Grandparent   03SFSKY037      07/01/03-06/30/06    07/01/03-06/30/05


Our audit objectives were to determine if:

                The De partme  nt’sfi nancialrepo rtst
                                                      o the Corporation presented financial
                 award results fairly, and costs claimed were allowable in accordance with
                 award terms and conditions;

                TheDe
                     par
                       tme
                         nt’
                           sinternal controls were adequate to safeguard Federal funds;

                The Department had adequate procedures and controls to ensure compliance
                 with Federal laws, applicable regulations, and award conditions; and

                The Department had established adequate management oversight of its
                 program sites and volunteer stations.

The Department claimed $1,118,639 under Award No. 03SFSKY037 in PYs 2003-2004 and
2004-2005. We questioned Federal costs of $276,238. A questioned cost is (1) an alleged
violation or provision of law, regulation, contract, grant, or cooperative agreement or other
agreement or document governing the expenditure of funds; (2) a finding that, at the time of the
audit, such cost was not supported by adequate documentation; or (3) a finding that the
expenditure of funds for the intended purpose was unnecessary or unreasonable. Details of
questioned costs are discussed below and in the Independent Auditor’     s Report (Schedule A).

Our audit expresses a qualified opinion on the Schedule of Claimed and Questioned Costs.

The Department claimed unallowable and unsupported costs as part of its matching
requirements. We did not include these as questioned costs in Schedule A because the
Department exceeded its minimum ten-percent match requirement.

We have also issued a report titled Independent Auditors’Report on Compliance and Internal
Control on our cons  ider
                        ationo  ftheDe   partment ’sintern alco ntrolandc  omp  l
                                                                                ian cewi t
                                                                                         hl awsa nd
regulations. In that report, we identified eight findings that are required to be reported under
generally accepted government auditing standards. These findings are as follows:

1.       The Department claimed unallowable costs.
                                                1
2.     Some program management personnel were not Department employees.

3.     The Department did not adequately record and account for labor costs.

4.     The Department did not have adequate procedures to determine volunteer eligibility.

5.     The Department did not adequately document the eligibility of all children served.

6.     The project director did not have adequate procedures to manage Foster Grandparents
       Program (FGP) sites.

7.     The Department did not adequately document volunteer orientation and training.

8.     The Department did not comply with t
                                          heg
                                            rant
                                               ’sv
                                                 olunt
                                                     eerr
                                                        ecr
                                                          uit
                                                            ingrequirements.

BACKGROUND

Corporation for National and Community Service

The Corporation supports national and community service programs that provide full- and part-
time service opportunities for individuals. It funds opportunities for Americans to engage in
service that fosters civic responsibility, strengthens communities, and provides educational
opportunities for those who make a substantial commitment to service. Corporation programs
include AmeriCorps, Senior Corps, and Learn and Serve America. These programs annually
engage more than two million Americans of all ages and backgrounds.

Senior Corps is a network of programs that taps the experience, skills and talents of older
citizens to meet community challenges. Through its three programs, FGP, Senior Companions
(SCP), and the Retired and Senior Volunteer Program (RSVP), more than half a million
Americans age 55 and over assist local nonprofits, public agencies, and faith-based organizations
in carrying out their missions.

FGP provides a way for persons age 60 and over with limited incomes to serve as extended
family members to children and youth with exceptional needs. Volunteers serve between 15 and
40 hours a week in schools, hospitals, correctional institutions, daycare facilities, and Head Start
Centers. They help children who have been abused or neglected, mentor troubled teenagers and
young mothers and care for premature infants or children with physical disabilities.

Kentucky Department for Mental Health and Mental Retardation Services

FGP operates at several Department-operated inpatient facilities that provide psychiatric,
rehabilitative and nursing-care services, and at volunteer stations. The inpatient facilities serve
as three of the four sites where FGPs are based. In addition to the FGP program office located at
the Hazelwood Center in Louisville, FGPs are located at the Oakwood facility in Summerset,
Outwood facility in Dawsons Springs, and the Comprehend, Inc., site in Maysville. Each facility
has a full- or part-time site supervisor responsible for supervising volunteers.

                                               2
Volunteer stations are typically daycare centers and schools. Each station signs a memorandum
of understanding with the Department outlining responsibilities of the site supervisor and the
volunteer station.

Total Corporation funds awarded to the Department for FGP were $1,131,464. The ten-percent
required matching contribution amounted to $113,146.

The De  pa
         rtme ntisin cl
                      udedinKe   ntucky ’sa nnualSi ngl
                                                      eAu  ditinc  omp li
                                                                        ancewi thOf f i
                                                                                      ceof
Management and Budget (OMB) Circular A-133, Audits of States, Local Governments, and Non-
Profit Organizations. We reviewed the Single Audit for the fiscal year ended June 30, 2004.
The Corporation grant was not selected as a major program.

EXIT CONFERENCE

An exit conference with Department and Corporation representatives was held on March 13,
2006. Department and Corporation responses to this report are included as Appendices A
and B, respe ct
              ivel
                 y.I na dditi
                            o n,weh  avei nclude dours umma  ryoft heDe  par t
                                                                             ment
                                                                                ’s
comments on the cost-related findings. The Department did not propose any actions to
address the recommendations in the internal control and compliance findings.

The Corporation noted in its response that it will address all findings when the final audit
report is issued, but specifically commented on one of the findings. In response to the
findingo  nt heDe  pa rt
                       me nt’sus  eofcont
                                        ra ctede  mploy ees,theCor   porat
                                                                         ion stated that it will
look more closely at these costs once this final report has been issued. The Corporation also
stated that the additional review may result in the Corporation allowing these costs.




                                                3
January 13, 2006

Office of Inspector General
Corporation for National and Community Service


                               INDEPENDENT AUDITORS’REPORT


We have audited costs incurred by the Department for PYs 2003-2004 and 2004-2005 for the
award listed below. These costs, as presented in the Schedule of Claimed and Questioned Costs
(Schedule A), are the responsibility of Department management. Our responsibility is to express
an opinion on the schedule of claimed and questioned costs based on our audit.


 Program                             Award No.         Award Period           Audit Period
 Senior Corps Foster Grandparent   03SFSKY037         07/01/03-06/30/06     07/01/03-06/30/05


We conducted our audit in accordance with audit standards generally accepted in the United
States of America and generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedule is free of material misstatement. An audit includes examining, on a test basis,
evidence supporting amounts and disclosures in the financial schedule. An audit also includes
assessing accounting principles used and significant estimates made by management, as well as
evaluating overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion on incurred costs.

The Schedule of Claimed and Questioned Costs is intended to present allowable costs incurred
under the award in accordance with OMB Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments, other applicable OMB circulars, and award terms and conditions.
The re
     fore ,t
           hes che duleisn otint
                               e ndedt obec ompl e t
                                                   ep resentati
                                                              onso ft heDe pa rt
                                                                               me  nt’
                                                                                     s
revenues and expenses in conformity with generally accepted accounting principles.

In our opinion, except for questioned costs in the Schedule of Claimed and Questioned Costs, the
financial schedules referred to above present fairly, in all material respects, costs claimed by the
Department for PYs 2003-2004 and 2004-2005, in conformity with OMB Circular A-87, other
applicable OMB circulars, and award terms and conditions.



                                               4
In accordance with generally accepted government auditing standards, we have also issued a
repo r
     tda t
         edJ anua ry1  3,2006  ,ono urc onsideratio noft h eDe
                                                             pa rt
                                                                 me  nt’sin t
                                                                            erna lcont r
                                                                                       oland
compliance with laws and regulations. This report is an integral part of an audit performed in
accordance with generally accepted government auditing standards and should be read in
conjunction with this report in considering audit results.

This report is intended for the information and use of the Corporation, OIG, the Kentucky
Department for Mental Health and Mental Retardation Services, and the U.S. Congress, and
is not intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Partner




                                              5
                                                                            SCHEDULE A


                KENTUCKY DEPARTMENT FOR MENTAL HEALTH AND
                        MENTAL RETARDATION SERVICES
                  SCHEDULE OF CLAIMED AND QUESTIONED COSTS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                            AWARD NO. 03SFSKY037
                 SENIOR CORPS FOSTER GRANDPARENTS PROGRAM
                         JULY 1, 2003, TO JUNE 30, 2005



                                                        Amount          Notes
       Approved Budget (Federal Funds)                 $1,131,464
       Claimed Federal Costs                           $1,118,639

       Questioned Federal Costs:
         Contracted employee costs                       $236,906          1
         Prior-grant costs                                 23,850          2
         Ineligible volunteer station                        5,657         3
         Volunteer income exceeded guidelines               4, 771         4
         Underage volunteer                                  3,844         5
         Non-stipend volunteer benefits                      1,064         6
         Unallocable cost                                      146         7
       Total Questioned Federal Costs                    $276,238

1.   The Department claimed Federal costs of $236,906 for expenses associated with three
     supervisors at the Hazelwood, Oakwood, and Comprehend sites. These individuals were
     not Department employees, but were employed by organizations under contract to the
     Department. These costs are unallowable in accordance with 45 CFR § 2552.22, which
     states that a sponsor is responsible for fulfilling all project management requirements
     necessary to accomplish FGP purposes and may not delegate or contract these
     responsibilities to another entity.

     In addition, the Foster Grandparent Program Operations Handbook, April 2000,
     Chapter 5, Section 17, states:

            Project staff are employees of the sponsor and are subject to its
            personnel policies and practices. Project staff cannot serve under
            contract to the sponsor.

     As a result, we questioned these costs.
     Department Response: The Department stated it has not delegated responsibility or
     project management for the program to the contracted supervisors. While they are
                                          6
     supervisors in their regions, the contracted individuals carry out the directives of the
     Department. The State has followed this practice for many years and has been open
     with the Corporation about the arrangement.

     Audi tors’Comments: The De     partme nt’
                                             sc  omme
                                                    ntsdi
                                                        dno  ta ddressth er
                                                                          equirements
     of 45 CFR § 2552.20 or the FGP Handbook that project staff must be employees and
     cannot serve under contract to the sponsor.

2.   The Department claimed $23,850 incurred under its predecessor FGP grant (No.
     02SFSKY027), which ended on June 30, 2003, as follows:

           $15,506 for volunteer benefits (stipends and transportation) for the June 15 to
            June 30, 2003, pay period. We questioned these costs.

            Department Response: The Department stated it uses a cash basis of
            accounting. As such, when the June 15-June 30 payroll runs, it is posted in
            July to the next State fiscal year. It has been a long-standing practice,
            accepted by the Federal government and applied consistently from year to
            year for all grants.

            Aud  it
                  ors ’Comments: The De     pa rt
                                                me nt’spr ac
                                                           tice may be acceptable between
            different program years within a single grant, but Federal regulations require
            that costs be charged to the grant to which they are allocable.

           $4,172 for the final payment to Comprehend, Inc., under its PY 2002-2003
            contract. In addition, the Department erroneously claimed the same payment
            again later in the year. We questioned $8,344.

            Department Response: The Department stated it agrees that the duplicate
            payment resulted from an accounting error.

            Aud itor
                   s’Comments: The De      pa rt
                                               me nt’
                                                    sc omme  nt
                                                              sdono
                                                                  tadd
                                                                     res
                                                                       sth
                                                                         att
                                                                           he
            costs were related to the predecessor FGP grant.

     According to OMB Circular A-87, Attachment A, C. Basic Guidelines, a cost is
     allocable to a particular cost objective if the goods or services involved are
     chargeable or assignable to such cost objective in accordance with the relative
     benefits received.

3.   The Department claimed $5,657 for benefits paid to a volunteer who served at a for-
     profit daycare center. For-profit daycare centers are ineligible to be volunteer stations
     in accordance with 45 CFR § 2552.12. We questioned these costs.

     Department Response: The Department stated it does not dispute the finding.




                                             7
4.   The Department claimed $4,771 for benefits paid to a volunteer whose income
     exceeded amounts specified in income-eligibility guidelines contained in 45 CFR §
     2552.42. We questioned these costs.

     Department Response: The Department stated it does not dispute the finding.

5.   The Department claimed $3,844 for benefits paid to three volunteers under the age of
     60. According to 45 CFR § 2552.41, volunteers must be 60 years of age or older to
     be eligible to serve in the program. We questioned these costs.

6.   The Department claimed $1,064 for mileage costs reimbursed to four non-stipend
     volunteers who served at the Comprehend site. These costs are unallowable in
     accordance with 45 CFR § 2552.104 and the FGP Handbook. We questioned these costs.

7.   The Department claimed $146 of costs that were erroneously charged to the FGP
     program. Financial personnel in the Department identified and corrected the accounting
     records in October 2005, but failed to correct expenditures reported on the Financial
     Status Reports (FSRs).

     According to 45 CFR § 2541.200, grantees and subgrantees must maintain records that
     adequately identify the source and application of funds provided for financially-assisted
     activities. These records must contain information pertaining to grant or subgrant awards
     and authorizations, obligations, unobligated balances, assets, liabilities, outlays or
     expenditures, and income. We questioned these costs.




                                           8
January 13, 2006

Office of Inspector General
Corporation for National and Community Service


                             INDEPENDENT AUDITORS’REPORT ON
                             COMPLIANCE AND INTERNAL CONTROL


We have audited costs incurred by the Kentucky Department for Mental Health and Mental
Retardation Services for the following award and have issued our report thereon dated January
13, 2006. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and generally accepted government auditing standards.

  Program                             Award No.          Award Period         Audit Period
  Senior Corps Foster Grandparent   03SFSKY037         07/01/03-06/30/06    07/01/03-06/30/05


INTERNAL CONTROL OVER FINANCIAL REPORTING

Inpl ann inga ndp er f
                     or mingou  rau dit,wec  onside r
                                                    edt heDe   pa r
                                                                  tme nt’
                                                                        sinte rnalc ontrolov er
financial reporting to determine our audit procedures for the purpose of expressing our opinion
on the financial schedule and not to provide an opinion on internal control over financial
reporting. We noted certain matters involving the internal control over financial reporting and
its operation, however, that we consider to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of internal control over financial reporting that, in our judgment, could adversely affect
theDe  pa rt
           me  nt
                ’sa bilit
                        yt oinitia
                                 te ,record,pr oce ss,andr  epo rtfinanci
                                                                        alda taconsistent with the
assertions of management in the financial schedule. Reportable conditions are described in the
accompanying schedule of findings and questioned costs (Finding Numbers 1 through 8).

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce, to a relatively low level, the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial schedule being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of
internal control over financial reporting would not necessarily disclose all matters in internal
control that might be reportable conditions and, accordingly, would not necessarily disclose all

                                               9
reportable conditions that are also considered to be material weaknesses. We consider all of the
reportable conditions described above to be material weaknesses.

COMPLIANCE WITH LAWS AND REGULATIONS

As part of obtaining reasonable assurance about whether the financial schedule is free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and grants, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. Providing an opinion on compliance with those
provisions was not, however, an objective of our audit, and, accordingly, we do not express such
an opinion. The results of our tests disclosed instances of noncompliance that are required to be
reported under generally accepted government auditing standards and that are described in the
accompanying schedule of findings and questioned costs (Finding Numbers 1 through 8).

FINDINGS

1.     The Department claimed unallowable costs.

The notes in Schedule A describe questioned costs of $276,238 that are unallowable in
accordance with OMB Circular A-87, 45 CFR § 2552, and 45 CFR § 2541. These consist of
costs claimed by the Department for which there was documentation that claimed costs were
expended in violation of laws, regulations, or specific conditions of awards, or costs that
required interpretation of allowability by the Corporation. Some of these unallowable costs are
discussed in Finding Number 2.

In addition, the Department claimed unallowable and unsupported costs as part of its matching
requirements. We did not question these costs in the schedule because the Department exceeded
its overall match requirements.

Recommendation: We recommend that the Corporation require the Department to revise its
policies and procedures and provided specific training to its employees to ensure that it claims
only allowable costs.

2.     Some program management personnel were not Department employees.

Three site supervisors at the Hazelwood, Oakwood, and Comprehend sites were employed by
organizations under contract to the Department to manage those facilities. In accordance with 45
CFR § 2552.22, a sponsor is responsible for fulfilling all project management requirements
necessary to accomplish the purposes of the FGP as specified in the regulation. A sponsor may
not delegate or contract these responsibilities to another entity.

In addition, the FGP Handbook, Chapter 5, Section 17, states:

       Project staff are employees of the sponsor and are subject to its personnel
       policies and practices. Project staff cannot serve under contract to the sponsor.



                                              10
Department personnel stated that they were not aware of the requirement that all project
personnel must be employees. We questioned labor, fringe benefit, and travel costs
associated with these individuals (see Schedule A, Note 1, of the Independent Auditor’ s
Report).

Recommendation: We recommend that the Corporation require the Department to
immediately comply with the employment requirements of the award.

3.     The Department did not adequately record and account for labor costs.

The Department did not maintain adequate support for salaries and wages charged to the FGP
program, as follows:

              Thepr   oj
                        e c tdi
                              rector’st imesheets did not support her actual effort. According
               to the project director, she spent approximately five percent of her time
               supervising non-FGP staff. Her time sheets, however, indicated that she spent
               all of her time working on the FGP program. The project director was not
               aware that she had to account for all of her activities on her time sheets.

              The Hazelwood site supervisor in PY 2004-2005, a contracted employee
               through a non-profit corporation, completed time-and-attendance records that
               reflected the number of hours worked each day, but the records did not
               identify actual activities.

              The Oakwood site supervisor was removed from the program at the end of
               February 2004 but remained a Department employee until her retirement in
               August 2004. The Department, however, continued to allocate her labor costs
               to the grant as match costs, because the payroll department was not notified of
               her change in duties. All of her labor costs were allocated to the program as
               match costs.

According to OMB Circulars A-87 and A-122, the distribution of employee salaries or wages
must be supported by personnel activity reports that reflect an after-the-fact distribution of the
actual activity of each employee, and account for the total activity for which each employee is
compensated.

Recommendation: We recommend that the Corporation require the Department to maintain
personnel activity records that support labor costs in accordance with applicable OMB circulars
and grant regulations.

4.     The Department did not have adequate procedures to determine volunteer
       eligibility.

The Department had weak procedures for obtaining physical examinations and income reviews.




                                               11
Physical Examinations. The Department uses a standard form on which a doctor certifies that
the volunteer is capable of serving children. This form was not on file in four of eight volunteer
files sampled at the Oakwood site and three of thirteen sampled files at the Hazelwood site.
Some files included other documentation from doctors, but it did not state that individuals were
physically capable of serving in the program. Other files had no documentation that any
physical examination was performed. Department representatives informed us that some doctors
refused to sign the standard form.

According to 45 CFR § 2552.41, a volunteer must be determined by a physical examination to be
capable, with or without reasonable accommodation, of serving children with exceptional or
special needs without detriment to either the member or the children served. Failure to obtain
the required physical examination could result in volunteers who are unfit to serve in the
program or are incapable of serving children.

Income Reviews. We tested a sample of 67 volunteer Income Review Forms. Social Security
income for nine of the volunteers was not included on the forms. According to 45 CFR §
2552.42, volunteers must include income from all sources. Program representatives stated that
some Income Review Forms were not completed because volunteers had only Social Security
income, and the representatives did not think that Income Review Forms were required in such
cases.

Of the nine forms lacking Social Security income information, annual income was not projected
on three forms for first-time applicants who applied to become stipend volunteers. According to
45 CFR § 2552.42(b), applicants must project annual income for 12 months into the future to
become eligible to be a stipend volunteer. Department personnel stated that they were unaware
that applicants were required to project their income.

In addition, we tested a sample of Income Review Forms for all four sites. While occurrences
were limited, some forms lacked signatures for both the volunteer and the program official, and
some files contained no supporting documentation for annual income.

Recommendation: We recommend that the Corporation:

              Require the Department to ensure that all volunteers receive required annual
               physical examinations and report and completely document income in the
               volunteer’sfil
                            e;and

              Consider issuing guidance detailing how volunteer income should be
               documented.

5.     The Department did not adequately document the eligibility of all children served.

TheDe   pa rtme nt’
                  sAssignment and Care Form did not provide enough information to determine
eligibility, and written procedures regarding child eligibility were incomplete and inaccurate.




                                              12
Assignment and Care Form. The Department used an Assignment and Care Form to document
the eligibility of children served by the program. The form included a section that allowed staff
to indicate special or exceptional needs, such as tutoring and preschool, and included the
following definitions:

        (f) Children having exceptional needs. Children who are developmentally
        disabled, such as those who are autistic, have cerebral palsy or epilepsy, are
        visually impaired, speech impaired, hearing impaired, orthopedically impaired,
        are emotionally disturbed or have a language disorder, specific learning
        disability, have multiple disabilities, other significant health impairment or have
        literacy needs.

        (g) Children having special needs. Children who are abused or neglected; in
        need of foster care; adjudicated youth; homeless youths; teen-age parents; and
        children in need of protective intervention in their homes.

According to 45 CFR § 2552.12:

        (f) Existence of a child's exceptional need shall be verified by an appropriate
        professional, such as a physician, psychiatrist, psychologist, registered nurse or
        licensed practical nurse, speech therapist or educator before a Foster
        Grandparent is assigned to the child.

        (g) Existence of a child's special need shall be verified by an appropriate
        professional before a Foster Grandparent is assigned to the child.

The Departme   n t
                 ’spo licyi stoh aveastation representative sign the Assignment and Care
Formv  er i
          fy ingac hi l
                      d’se  li
                             gibil
                                 ity.The form did not, however, provide any indication that
persons signing the forms were qualified to verify the eligibility of children. The
Assignment and Care Form, which the Department uses to document an assignment plan, did
not identify the period of time each child should receive services. According to 45 CFR §
2552.72(4), the assignment plan must address the period each child receives service.

According to the project director, the assignment and care forms for the children being
served at inpatient facilities are updated annually, thus the service periods can be inferred.
Department personnel stated that Assignment and Care Forms for children in schools and
daycare centers were not updated because the child turnover rate was high and volunteers
were frequently changed. When Assignment and Care Forms do not specifically address the
period of time each child receives services and does not identify volunteers, it is difficult to
determine if volunteers were actually providing services.
In addition, some volunteer files were missing child Assignment and Care Forms. These
forms are required by 45 CFR § 2552.72. Oakwood site personnel could not explain why the
files did not contain the forms. Without an Assignment and Care Form in the volunteer file,
we could not determine if volunteers were assigned specific children.




                                               13
The project director considered the Assignment and Care Form adequate, and stated that
volunteer stations would not likely complete a more complicated form. Without adequate
docume  ntationo fac  hi
                       ld’selig i
                                bilityandve rifi
                                               cationofe  l
                                                          igib il
                                                                itybya  na  ppropria
                                                                                   te
professional, the Department cannot prove that children are eligible for the program.

Written Procedures. TheDe      pa r
                                  tment’
                                       swr
                                         it
                                          tenp
                                             roc
                                               edur
                                                  esfor child eligibility were
incomplete and inaccurate, as follows:

              Procedures did not specifically state that a child must be special and/or
               exceptional to be served in the program and did not define what qualifies a
               child as special or exceptional.

              Written instructions incorrectly stated that assignments may continue past the
               age of 21 if the child has special or exceptional needs. According to 45 CFR
               § 2552.82, assignments can only continue if:

                      The child is mentally retarded;
                      The child started receiving the services prior to the age of 21; and
                      The continuation of services is in the best interest of both the child and
                       the volunteer.

Recommendation: We recommend that the Corporation require the Department to revise its
Assignment and Care Form and written policies and procedures to comply with all program
requirements.

6.     The project director did not have adequate procedures to manage program sites.

The project director did not have adequate policies and procedures over site and fiscal
monitoring, volunteer station eligibility, and record retention.

Site Monitoring. The project director stated that it was her policy to visit each site at least
quarterly to ensure that sites obtained and maintained critical FGP documentation (i.e.
application, physical exam, income review). She did not, however, have a written policy that
outlined visit frequency and the documentation to be reviewed. In addition, she maintained no
documentation of FGP files reviewed or exceptions noted.

Fiscal Monitoring. The project director did not have access to or review accounting reports
detailing charges to the program. She stated that software problems on her computer have
prevented her from accessing financial information from the Department. Without access to
accounting reports, the project director is unable to review charges to the project and identify
unallocable or unallowable costs charged to the grant.

Volunteer Station Eligibility. The project director relied on site supervisors to obtain and
maintain documentation that verified daycare center eligibility. She did not verify that the site
supervisors obtained and maintained required documentation r   equi ri
                                                                     ngac  ente r
                                                                                ’snon-profit
status.

                                               14
In addition, written procedures for verifying the eligibility of volunteer stations did not exist. A
for-profit daycare center served as a volunteer station through the Oakwood site until December
2004. The site supervisor had no documentation regarding center eligibility. For-profit daycare
centers are ineligible in accordance with 45 CFR § 2552.12, which states that a volunteer station
can be a public agency, private non-profit organization, or proprietary health care agency or
organization that accepts the responsibility for assignment and supervision of volunteers in
health, education, social service, or related settings, such as hospitals, homes for dependent and
neglected children, or similar establishments. We questioned the benefits (stipend, mileage)
earned by the volunteer that served at the ineligible volunteer station in Schedule A of the
Independent Auditor’   s Report.

Record Retention. The project director had not informed sites of the requirement to maintain
program records for a period of three years after submission, and was unaware of record-
retention requirements in accordance with 45 CFR § 2541.420. In addition, the Department was
unable to provide a written policy for retaining program records.

Recommendation: We recommend that the Corporation require the Department to ensure that:

              Site visits follow specific procedures and are documented;

              The project director has access to accounting records and is required to review
               all charges;

              The project director establishes procedures for reviewing and approving
               volunteer stations that include retention of supporting documentation; and

              Sites are provided with a written policy for retaining program records.

7.     The Department did not adequately document orientation and training.

The Department did not adequately document that it provided orientation and training to
volunteers, as follows:

              Oakwood Site. No supporting documentation was available for orientation
               and training provided to volunteers.

              Comprehend Site. An orientation training schedule indicating that
               volunteers attended 40 hours of orientation was available. We could not,
               however, determine from the schedule if 20 hours of the orientation were the
               required pre-service training hours. In addition, the Department did not
               provide documentation to show that volunteers received required monthly in-
               service training.

              Hazelwood and Outwood Sites. These sites provided certifications that
               volunteers had completed the required 40 hours of training and orientation,
               but the sites did not track orientation and training separately. We could not

                                               15
               distinguish between orientation hours and training hours. In addition, we
               could not determine if 20 hours of the orientation was pre-service.

According to 45 CFR § 2552.23(f), volunteers must be provided with not less than 40 hours of
orientation, of which 20 hours must be pre-service. The volunteers must receive an average of
four hours of monthly in-service training.

The project director was not aware that it was necessary to have documentation in volunteer
files to support their orientation and training. She considered a certificate of completion to
be adequate support. Without adequate documentation, we are unable to determine if
volunteers actually received the required orientation and training.

Recommendation: We recommend that the Corporation require that the Department adequately
document orientation and training provided to volunteers as required by the regulation.

8.     The Department did not comply with the gr
                                               ant
                                                 ’svo
                                                    lunteer recruiting requirements.

The Department did not use t
                           heCor   porati
                                        on’ swe  b-based recruitment system, Join Senior
Service Now (JASON). The project director did not consider the use of JASON to be a
program priority. Accordingly, she did not access JASON to determine if potential
volunteers generated messages, and she did not encourage site supervisors to check JASON.

Grant Terms and Conditions state that grantees must use JASON to post opportunities for
volunteers. The grantee must also respond to JASON-generated messages of volunteer
interest and placement using the JASON response system.

Not using JASON could result in the loss of potential program volunteers.

Recommendation: We recommend that the Corporation instruct the Department to use
JASON as required by grant terms and conditions.



This report is intended for the information and use of the Corporation, OIG, the Kentucky
Department for Mental Health and Mental Retardation Services, and the U.S. Congress, and
is not intended to be and should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Partner

                                              16
                  APPENDIX A

THE DEPARTMENT’
              S RESPONSE TO DRAFT AUDIT REPORT
                                             CABINETFORHEALTHAND FAMILY
                                                DEPARTMENTFOR MENTALHEALTH
                                                                             1
                                                                      SERVICES
                                                                                             btLi12r JI
                                                                                          \N(Yir139 ilt Tn
                                                                                                          L




                                                                                                MARKD. BIRDWHISTELL
                                               AND MENTALRETARDATIONSERVICES                             SECRETARY
                                                    100 FAIROAKSLANE4E-I3




                                                       June 7,2006




Carol Bates
Acting Inspector General
Corporation for National and Community Services
1201 New York Avenue NW
Suite 830
Washington, D.C. 20525

Dear Ms. Bates:

Thank you for the opportunity to review the draft audit. We are very proud of our Foster
Grandparent program (FGP) and its positive impact on the lives of our most vulnerable
children. The dedicated volunteers who work in the program are invaluable. We want
to ensure you we will work with the Corporation to address all findings and continue to
operate a high quality program.

The primary issue identified in the audit relates to the interpretation of the Corporation's
regulations related to project management which state "a sponsor is responsible for
fulfilling all project management requirements necessary to accomplish FGP purposes
and may not delegate or contract these resoonsibilities to another entity." The
Department has not delegated responsibility or project management for the program to
the contract supervisors. While they are supervisory in their regions, the contracted
individuals carry out the directives of the Department rather than setting policy of their
own. The state has followed this practice for many years and has been very open with
the Corporation about the arrangement. It is a practice far different than contracting
with an entity to provide a program. That stated, the Department fully intends to
implement all policies and procedures required by the Corporation.

Also, we need to stress that while these supervisors' payroll and fringe benefits are paid
through contract agencies, travel reimbursement is not. Reimbursement of supervisors
travel is paid by state check directly- to the supervisors upon receipt of travel vouchers
approved by the project director.

+\i.il~ i ~ k v ~ n u r i d i e d S p
                                    corr'
                                      1r11                                       An E q ~ ~Opportun~ty
                                                                                           al         Employer MIF D
Carol Bates
Page 2
June 7,2006


The auditors questioned $15,506 for volunteer benefits claimed under Grant #
03SFSKY037, but incurred under its previous FGP Grant #02SFSKY027, which ended
on June 30, 2003. These were for volunteer benefits (stipends and transportation) for
the June 15 to June 30, 2003, pay period. Kentucky uses a cash basis of accounting.
With this basis of accounting, when the June 15 to June 30 payroll runs it is posted in
July to the next state fiscal year. As such it has been a long standing practice, accepted
by the federal government, to charge to each grant 24 equal payrolls based on when
the expenditure is paid (cash basis) not when the expenditure is incurred (accrual
basis). This is applied consistently from year to year and for all grants in which the state
participates.

The auditors also identified a duplicate payment to Comprehend, Inc that we agree
results from an accounting error. We are eliminating these expenses from the Foster
Grandparent charges within Kentucky's accounting system which will be reflected on
revised Financial Status Reports.

The auditors also identified $5,657 claimed for benefits paid to a volunteer who served
at a for-profit daycare center. For-profit daycare centers are ineligible in accordance
with 45 CFR 5 2552.12. The Department discovered this incident and brought it to the
attention of the auditors. While state funds were used for stipend money during 03-04
and for payment of transportation, the costs remained charged to the program. We do
not dispute this finding and are eliminating these expenses from the Foster Grandparent
charges within Kentucky's accounting system which will be reflected on revised
Financial Status Reports.

The auditors also noted the Department claimed $4,771 for benefits paid to a volunteer
whose income exceeded amounts specified in income-eligibility guidelines contained in
45 CFR 5 2552.42. We do not dispute this finding. The individual was terminated and
any state and federal costs recognized have been eliminated from the Foster
Grandparent charges within Kentucky's accounting system which will be reflected on
revised Financial Status Reports.

The report contained a few other findings that we will resolve with the Corporation when
the audit is final. If you have any questioned regarding this response, please feel free to
contact me at 502-564-4527.




                                    /      John M. Burt, Ed.D.
                                           Commissioner
                APPENDIX B

CORPORATION’
           S RESPONSE TO DRAFT AUDIT REPORT
                                          Corvoration for   -
                                       NATIONAL &r
                                       COMMUNITY
                                       SERVICE=;


To:

Prom:                                                               Cluster

Cc:           Margaret Rosenberry, Director of Grants Management
              Tess Scannell, Direcot, Senior Corps programs
              Tory Willson, Audit Resolution Coordinator, Office of the CFO

Date:          June 1,2006

Subject:      Response to OIG Draft Audit Report: Audit of Corporation for National and
              Community Service Grants Awarded to the Kentucky Department for Mental
              Health and Mental Retardation Services


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Kentucky Department for Mental Health and Mental Retardation Services
(Department). We are addressing only one finding at this time. We will respond to all findings
and recommendations in our management decision when the final audit is issued, we have
reviewed the findings in detail and worked with the Department to resolve the audit.

As noted in the draft summary, the auditors questioned $236,906 in claimed grant expenses
associated with the contracting of supervisors at three project sites. The Corporation will look
more closely at these costs once the final audit report has been issued. Our Kentucky State
Office is working to gather additional information as we continue to review this issue. The
additional review may result in the Corporation allowing these costs.

The Corporation will address the remaining questioned costs and other findings during audit
resolution after the audit is issued as final.




                             1201 New York Avenue, NW -k Washington, DC 20525
                                   202-606-5000 * www.nationalservice.org
                           Senior Corps   * AmeriCorps * Learn and Serve America            The President'sCall to ~ e & e
